<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

              H.R. 4347, H.R. 2283, H.R. 4411, H.R. 4640,
                H.R. 4653, H. Res. 435, H. Res. 562 and
                              H. Res. 588

                               __________

                             JUNE 26, 2014

                               __________

                           Serial No. 113-186

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-461PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4347, To require the Secretary of State to provide an annual 
  report to Congress regarding United States Government efforts 
  to survey and secure the return, protection, and restoration of 
  stolen, confiscated, or 
  otherwise unreturned Christian properties in the Republic of 
  Turkey and in those areas currently occupied by the Turkish 
  military in northern Cyprus....................................     2
  Amendment in the nature of a substitute to H.R. 4347 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    10
    Amendments to the amendment in the nature of a substitute to 
      H.R. 4347 offered by:
      The Honorable Gerald E. Connolly, a Representative in 
        Congress from the Commonwealth of Virginia...............    32
      The Honorable Alan Grayson, a Representative in Congress 
        from the State of Florida................................    39
      The Honorable George Holding, a Representative in Congress 
        from the State of North Carolina.........................    40
H.R. 2283, To prioritize the fight against human trafficking 
  within the Department of State according to congressional 
  intent in the Trafficking Victims Protection Act of 2000 
  without increasing the size of the Federal Government, and for 
  other purposes.................................................    43
  Amendment in the nature of a substitute to H.R. 2283 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    51
    Amendment to the amendment in the nature of a substitute to 
      H.R. 2283 offered by the Honorable Christopher H. Smith....    58
H.R. 4411, To prevent Hezbollah and associated entities from 
  gaining access to international financial and other 
  institutions, and for other purposes...........................    60
  Amendment in the nature of a substitute to H.R. 4411 offered by 
    the Honorable Edward R. Royce................................    80
    Amendments to the amendment in the nature of a substitute to 
      H.R. 4411 offered by:
      The Honorable Ted Poe, a Representative in Congress from 
        the State of Texas.......................................   100
      The Honorable Ron DeSantis, a Representative in Congress 
        from the State of Florida, the Honorable Theodore E. 
        Deutch, a Representative in Congress from the State of 
        Florida, and the Honorable Grace Meng, a Representative 
        in Congress from the State of New York...................   102
H.R. 4640, To establish the Western Hemisphere Drug Policy 
  Commission.....................................................   107
  Amendment in the nature of a substitute to H.R. 4640 offered by 
    the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................   120
    Amendment to the amendment in the nature of a substitute to 
      H.R. 4640 offered by the Honorable Joaquin Castro, a 
      Representative in Congress from the State of Texas.........   133
H.R. 4653, To reauthorize the United States Commission on 
  International Religious Freedom, and for other purposes........   134
  Amendment in the nature of a substitute to H.R. 4653 offered by 
    the Honorable Christopher H. Smith...........................   138
    Amendment to the amendment in the nature of a substitute to 
      H.R. 4653 offered by the Honorable Grace Meng..............   142
H. Res. 435, Calling on the government of Iran to fulfill their 
  promises of assistance in this case of Robert Levinson, one of 
  the longest held United States civilians in our Nation's 
  history........................................................   143
  Amendment in the nature of a substitute to H. Res. 435 offered 
    by the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida...........................   147
H. Res. 562, Expressing the sense of the House of Representatives 
  with respect to enhanced relations with the Republic of Moldova 
  and support for Moldova's territorial integrity................   150
  Amendment in the nature of a substitute to H. Res. 562 offered 
    by the Honorable Edward R. Royce.............................   156
H. Res. 588, Concerning the suspension of exit permit issuance by 
  the Government of the Democratic Republic of Congo for adopted 
  Congolese children seeking to depart the country with their 
  adoptive parents...............................................   161
  Amendment in the nature of a substitute to H. Res. 588 offered 
    by the Honorable Christopher H. Smith........................   165
    Amendment to the amendment in the nature of a substitute to 
      H. Res. 588 offered by the Honorable Edward R. Royce.......   168

                                APPENDIX

Markup notice....................................................   184
Markup minutes...................................................   185
Markup summary...................................................   187
The Honorable Edward R. Royce: Statement submitted for the record 
  by the Honorable Gus Bilirakis, a Representative in Congress 
  from the State of Florida......................................   188
The Honorable Eliot L. Engel: Material submitted for the record..   189
The Honorable Gerald E. Connolly: Prepared statement.............   190

 
                            VARIOUS MEASURES

                              ----------                              


                        THURSDAY, JUNE 26, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:08 a.m. in room 
2172, Rayburn House Office Building, Hon. Ed Royce (chairman of 
the committee) presiding.
    Chairman Royce. This committee will come to order. Pursuant 
to notice, today we mark up eight different measures. And I am 
going to ask the members to take their seats. I want to begin 
by thanking all of our committee members, and I want to thank 
the staff, too, on both sides of the aisle, for the extensive 
preparatory work that went into today's markup, including those 
subcommittees that held their own markups.
    Without objection, all members may have 5 calendar days to 
submit statements for the record on any of today's business.
    And I now call up H.R. 4347, the Turkey Christian Churches 
Accountability Act. Without objection, Royce Amendment 117 in 
the nature of a substitute, which was provided to all offices 
on Tuesday morning, will be considered base text for purposes 
of markup, and is considered read and open for amendment at any 
point.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. After opening remarks by myself and the 
ranking member, I will recognize other members seeking to speak 
on the bill before moving to any amendments. And I now 
recognize myself to speak.
    Members, in the midst of a turbulent Middle East lies 
Turkey, a democratic nation that, despite its Muslim majority, 
has historically bridged East and West, Christian and Muslim 
worlds.
    I have long been concerned that this balance is shifting as 
Christian heritage sites in Turkey deteriorate and disappear in 
the face of hostile government policies.
    Despite optimistic claims by Turkish leaders in 2011 that a 
revised law would allow all church properties to be returned to 
their rightful owners within a year, 3 years later most of 
those properties remain unreturned.
    Despite the Turkish Government's numerous promises to 
reopen the Halki seminary, that seminary remains closed. Of 
course, no seminary, nobody then to practice the faith, no 
future church.
    Recently, two Byzantine Orthodox churches previously 
expropriated and turned into museums, have been converted into 
mosques by the Turkish Directorate General of Foundations.
    There is even legislation before the Turkish Parliament to 
convert the landmark Hagia Sophia in Istanbul into a mosque. 
Hence the timeliness of this resolution.
    As a beacon for religious freedom around the world and 
having an interest in seeing Turkey maintain its secular 
tradition, its respect for freedom of religion, the U.S. must 
hold Turkish leaders to their promises.
    By passing H.R. 4347, the U.S. will send a clear message to 
Turkey that it must return church properties to their rightful 
owners while providing an objective measure of its progress.
    I would like to thank Congressman Gus Bilirakis for his 
contributions to this bill, and without objection, I will 
submit his prepared statement for the record. And I urge my 
colleagues to support this important bill.
    I now recognize the ranking member for any remarks on 
today's markup that he might wish to make.
    Mr. Engel. Thank you very much, Mr. Chairman, for holding 
this markup of H.R. 4347, the Turkey Christian Churches 
Accountability Act. I commend you for introducing this 
important legislation, and I am pleased to be the lead 
Democratic cosponsor.
    In the last century, thousands of Christian properties in 
Turkey have been confiscated by successive Turkish governments. 
The same has happened in Northern Cyprus since the Turkish 
invasion in 1974. Recently, Turkey has returned some 
properties, but many cases remain unresolved. Clearly, more 
needs to be done.
    H.R. 4347 directs the Secretary of State to provide 
Congress with an annual report through the year 2021 on the 
status of stolen, confiscated, and otherwise unreturned 
Christian churches, places of worship, and other properties in 
Turkey and Northern Cyprus.
    The report should include a comprehensive listing of all 
properties claimed to have been removed from their rightful 
Christian church owners and should describe all engagement over 
the previous year by State Department officials with Turkish 
representatives. This bill also mandates that the report be 
included in the State Department's Annual International 
Religious Freedom Report and in the Country Reports on Human 
Rights Practices.
    I want to acknowledge two visitors here today who are in 
the audience, Arch Bishop Vicken Aykazian and Bishop Anoushavan 
Tanielian. I hope I didn't mess the names up too much, but we 
welcome you here, gentlemen.
    In this context, let me take a moment to express my concern 
about recent disturbing anti-democratic trends in Turkey. Over 
the past several years, we have seen a lot of red flags: 
Questionable trials of political opponents, increased media 
censorship, propaganda blaming foreigners and in particular 
Jews and Israel for domestic problems, and an increase of 
government control over various state institutions, including 
the judiciary.
    As Mr. Keating and I wrote in a recent letter to the editor 
in The Economist, the current government of Prime Minister 
Erdogan is eroding Turkish democracy. I ask unanimous consent 
that the letter be included in the record of today's markup.
    Chairman Royce. Without objection.
    Mr. Engel. While I have concerns about Turkey's current 
course, we should also take note of the bright spots. 
Negotiations to resolve the 30-year Cyprus dispute are moving 
along. Ending the division of Cyprus is critical for stability 
in the Eastern Mediterranean and for prosperity on the island. 
Also, Ankara's vitriol toward Israel has diminished somewhat in 
recent months. This provides hope that reconciliation between 
the countries might not be too far off.
    Turkey and the United States have a long history as NATO 
allies and partners. Our relationship is strongest when it is 
based on our shared values: Democracy, human rights, tolerance, 
and justice. When Turkey's commitment to those values is called 
into question, it damages our partnership and it hampers 
Turkey's progress as a free and prosperous country. One clear 
way Turkey could reaffirm its commitment is by returning 
confiscated and stolen church properties to their rightful 
owners.
    So, Mr. Chairman, I hope H.R. 4347 will bring attention to 
this important issue and make it clear to Turkey that it needs 
to do more to resolve the longstanding and legitimate claims of 
the Christian churches. I urge my colleagues to support this 
legislation. And once again, thank you, Mr. Chairman, for 
holding the markup.
    Chairman Royce. Thank you, Mr. Engel.
    Are there any members who wish to speak on the underlying 
bill? Mr. Rohrabacher, go ahead.
    Mr. Rohrabacher. I just would like to commend you, Mr. 
Chairman, for bringing up this legislation. And let me just say 
that I share the concerns that were just voiced by our ranking 
member, Mr. Engel. There are some disturbing trends in Turkey. 
And while we recognize that Turkey has made long-term progress 
over the last 20 and 30 years, over the last few years there 
has really been reason for concern here, and that people who 
wish Turkey well need to make sure we are paying attention and 
that those trends, those short-term trends that we have seen, 
do not continue in the wrong direction.
    And finally, one last point about the specific nature of 
the legislation that we are dealing with today, Mr. Chairman, I 
agree with you totally on the substance of this bill. We are 
expressing our concern about properties that are taken that 
also have very significance as to the very nature of the 
government and the nature of the decision making that is going 
on in that part of the world.
    I would just suggest that as we pass this, with my strong 
support, that we do note that there are probably properties in 
surrounding countries, like Greece, for example, that belong to 
the Turkish tradition that need to be addressed as well, and 
people need to respect each other's rights. And we are 
demanding today that the rights of Christian churches be 
respected in Turkey. I would hope that we respect the rights of 
Islamic and Turkish institutions in nearby countries, such as 
Greece. Thank you very much.
    Chairman Royce. Thank you.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Engel for your continued commitment to 
working across the aisle and marking up legislation to benefit 
the American people. I am happy to see forward momentum on a 
number of bills that I have cosponsored.
    It is the responsibility of Congress to prevent terrorist 
organizations like Hezbollah from growing stronger; to 
emphasize the importance of our relationship with Moldova; and 
to express our concern about the timeliness of adoption 
processes from the Democratic Republic of Congo.
    But I would like this morning to speak particularly in 
support of H.R. 4347, the Turkey Christian Churches 
Accountability Act, which rightly calls out Turkey for the 
theft of Christian churches, religious artifacts, and religious 
artwork. The United States was founded on the principles of 
religious liberty and freedom, and the respect for religious 
freedom must be central to the values and ideals that we 
promote all over the the world.
    Christian communities in Turkey have long suffered from the 
destruction and confiscation of their holy sites, the force 
closure of their theological schools, and restrictions on their 
right to worship. There have even been reports that Turkish 
people are prevented from praying in their own churches. 
Continued persecution of the vulnerable Christian minority in 
Turkey threatens the survival of their religious tradition.
    In the 112th Congress, I was proud to work with Ranking 
Member Berman to offer an amendment during the markup of the 
Foreign Relations Authorization Act, which called on Turkey to 
end its repression of its Christian minority and to return 
stolen churches to their rightful owners. More specifically, 
the amendment stated that Turkey should end all forms of 
religious discrimination, allow the rightful church and lay 
owners of Christian church properties to organize and 
administer prayer services, religious education, clerical 
training, community gatherings, and social services, and return 
to their rightful owners all Christian churches, places of 
worship, and properties, including artwork, relics, and other 
artifacts. The amendment was overwhelmingly adopted by a vote 
of 43-1 in committee and became part of the underlying bill 
which was passed by the House Committee on Foreign Affairs.
    This April, I had the pleasure of visiting Armenia on a 
congressional delegation trip with Chairman Royce and Ranking 
Member Engel, as well as several other colleagues. On that trip 
I was disturbed to hear more on the ground about the 
persecution of Christians in Turkey and the desecration and 
fundamental lack of respect for Christian holy sites. More than 
2,000 properties destroyed; reused for things like museums, 
storage, and even a gas station.
    Today, I am proud to continue advocating for religious 
freedom in Turkey, and I urge support of this important bill. 
Again, I commend you, Mr. Chairman and Ranking Member Engel, 
for moving these important pieces of legislation. I look 
forward to their passage. I thank you, and I yield back.
    Chairman Royce. Thank you.
    We go now to Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for marking up H.R. 
4347, the Turkey Christian Churches Accountability Act, in 
order to ensure religious freedom for all faiths in Turkey. 
Christians in Turkey and Turkish-occupied Northern Cyprus 
deserve our assistance in ensuring that they can freely 
practice their faith in houses of worship without fear of 
hindrance or restrictions.
    Since the early 20th century, thousands of Christian 
properties have been confiscated, desecrated, and otherwise 
taken from their owners in Turkey by the Turkish Government, 
and since the 1970s in Northern Cyprus. I have personally been 
to Turkish-occupied Northern Cyprus and seen the devastating 
destruction to these churches firsthand. It is unacceptable 
that Turkey has yet to return some of these properties. For 
example, the Halki Theological School, the main seminary of the 
Ecumenical Patriarchate of Constantinople, has been closed 
since 1971.
    Mr. Chairman, a century is much too long for violations of 
religious freedom to go unanswered, and I am pleased that by 
supporting H.R. 4347 a message will be sent to Turkey that the 
United States does not stand for such intolerance. Thank you.
    Chairman Royce. Thank you.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. And I want to thank you 
and Mr. Engel for working in a bipartisan fashion to actually 
address some of the concerns that I have had with H.R. 4347, 
because I believe that there has to be balance, et cetera. But 
I just remain apprehensive, and I will have to oppose it, 
simply because, you know, not because I don't have concerns. I 
do have concerns. I have concerns of the status of stolen and 
confiscated Christian property in Turkey; for example, I am 
concerned about the continued closure of the Halki Theological 
Seminary, an important Greek Orthodox educational institution 
in Turkey for training, for one.
    But I think we did the right thing when Congress directed 
the State Department to carefully monitor the situation in 
Turkey, which they have been doing. And when I looked at the 
2013 State Department religious freedom report, it indicated 
that Turkey has been responsive to some of the calls to return 
stolen and expropriated Christian property. And maybe we need 
to go further. But how do we do it, and what do we do? How do 
we make sure things are balanced in the best way to work 
forward with an individual who has been a strong ally of the 
United States?
    You know, this comes at a time when we are partnering 
closely with Turkey on issues that are critical to the U.S. 
global interest. At this very moment, Turkey is working to 
secure the release of 80 of its citizens recently taken hostage 
by ISIS during the insurgence in Iraq. Just a month ago, Vice 
President Biden indicated during a monumental visit to Cyprus 
that after a 2-year hiatus, talks were on the verge of speeding 
up. That is something that I think that needs to be highlighted 
and we should also talk about.
    Also, in trying to make a decision on how and what I was 
going to do on this particular bill, I talked and asked the 
State Department where we were, and they say this bill will 
probably or could cause tension between U.S.-Turkey relations, 
as well as being burdensome on the Department so they can do 
the very thing that we have directed them to do.
    So, again, Mr. Chairman, I thank you for working on this 
bill and trying to alleviate some of my concerns. I just think 
that as we go forward right now we need a little more balance 
and we have got to make sure that--Turkey has been an ally that 
we are working with, a very important ally in the region, and I 
think that this sends the wrong message at the wrong time. I 
yield back the balance of my time.
    Chairman Royce. Thank you.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. I want to first of 
all say that you, Mr. Chairman, and Mr. Engel have conducted 
this committee in your tenure in a way that fosters comity and 
civility, and I appreciate that. And I appreciate the attempt 
we have had in the last 2 days with our staffs trying to work 
together to see if we could modify the language of this 
resolution to make it mutually acceptable. Unfortunately, we 
were not able to do that, and as you know, Mr. Chairman, I will 
be offering a substitute amendment that expresses our concerns 
about these issues but in what I consider a more balanced way.
    The current resolution in front of us is not about whether 
you favor the return of Christian properties. I favor, all of 
us favor that. All of us want to see more progress in Turkey. 
This resolution shortchanges the progress that has been made. 
Over 800 properties worth $1.5 billion. The restoration of 
liturgical services in some religious facilities, some very 
significant religious facilities.
    I am fearful that in our haste to make a statement that 
provides understandable comfort to our constituents, we are 
going to rupture one of the most important bilateral 
relationships we have right now in one of the most sensitive 
parts of the world. Turkey isn't a perfect country; neither are 
we. I know. I come from a Roman Catholic tradition. Catholics 
suffered enormous discrimination in this country for a long 
time.
    But are we willing to junk the relationship with Turkey we 
need right now? If we are looking at any kind of intervention 
in Iraq, we need Turkey. Turkey has taken in 1 million 
refugees, unsung. An enormous act of generosity in that region. 
Turkey is strategically in a place where it is as an ally more 
important than ever for the United States of America.
    As we speak, Turkey has had almost 80 Turkish nationals, 
including diplomats and truck drivers, kidnapped by ISIS in 
Mosul. We are going to pretend none of that happened and none 
of that is about to happen. We are going to make a statement as 
if Turkey were a country that is at the very beginning of 
evolution and needs to be lectured by us, and the consequences 
we will not examine because we are determined to do something 
else.
    We are the House Foreign Affairs Committee. We are the 
committee that Congress counts on to show judicious exercise of 
judgment, pondering and weighing and balancing consequences. 
The consequences of the resolution as worded--words matter--I 
guarantee you will rupture the relationship with Turkey.
    And by the way, if our objective is to get Turkey to show 
more progress, and I share in that objective, this language 
will only backfire. They have elections pending. We are 
politicians. A politician in Turkey is going to use this 
resolution to say, I am willing to stand up to the United 
States of America. I am not going to be bullied. I am not going 
to be lectured like we are some tinhorn dictatorship here in 
Turkey, when we are not.
    Turkey is not a perfect democracy, but it is an evolving 
democracy, and it is one we want to encourage to turn westward, 
to open up, to liberalize even more than they have. We want a 
pluralistic, secular society in Turkey. It is the only such in 
the Muslim world. To treat it with such disrespect in the 
language included in this resolution is bound, bound to have 
negative effects in Turkey. And all of the goals I think all of 
us share in this committee will, in fact, be set back for a 
cause that is noble, but for a resolution that is worded in a 
way that can only be calculated to inflame Turkey, Turks, the 
politics of Turkey, and do terrible damage to the bilateral 
relationship between the United States and Turkey.
    I urge my colleagues. I am going to offer a resolution that 
I think is more balanced that recognizes the problem but also 
says they have made a lot of progress and let's move forward. 
Let's encourage them. If you want to vote as a statement that 
more progress is needed on this subject and that you are on 
record, my substitute gives you that opportunity. But I pray my 
colleagues look at the wording of this resolution.
    I thank the chairman.
    Chairman Royce. Well, I thank the gentleman. The Chair is 
going to recognize himself, and especially inasmuch as we 
worked very carefully on the wording in this resolution.
    I would just remind the members here that this bill 
addresses an issue that has frequently been raised by the 
United States in the past, including at the highest level by 
President Obama, including raised by our Vice President, Joe 
Biden, including an issue which has been raised by Secretary 
Kerry. It has also been raised by our European allies.
    At none of these previous times has there been any 
deterioration in our relations or levels of cooperation with 
Turkey. In fact, the opposite has been true. During or 
immediately following these dialogues, the Turkish Government 
has made positive steps on property returns.
    We now face a situation where things are sliding in the 
opposite direction, and if we do not reassert this principle we 
will find, in all likelihood, an acceleration of a trend which 
will not be reversible.
    And I think we also have to disabuse ourselves of the 
notion that every choice that Turkey makes is in response to 
U.S. actions. Turkey is a mature, sovereign state. It evaluates 
its relationships and cooperation with other countries based on 
its calculus of what is in Turkey's best interest, not solely 
in reaction to U.S. measures, certainly not solely in reaction 
to a report by the House of Representatives.
    Primary examples of this, one I would give you, was in 
2010, when Turkey voted against the U.S. and the U.N. Security 
Council on the Iran sanctions. That had to do with Turkey's own 
calculus of its relationship with Iran. This was a significant 
action by Turkey, and it wasn't in response to any 
congressional action.
    It is clear that maintaining close cooperation with the 
United States on Iraq and Syria is, in fact, in Turkey's best 
interest. Should Turkish leaders choose to point to our raising 
of this longstanding issue, in which they are moving in the 
opposite direction, if they point to that, this well-known 
religious freedom issue, an issue they themselves have 
repeatedly promised to correct, as the reason to cut off 
security cooperation, as I think was implied here, then it 
would raise legitimate questions about their commitment to 
church property returns and where security cooperation with the 
U.S. weighs in their decision-making process.
    But I think at the end of the day, because the President, 
the Vice President, the Secretary of State are all weighing in 
with the same intention that we have here, we need to do the 
same.
    And with that said, I am going to recognize Mr. Smith of 
New Jersey.
    Mr. Smith. Thank you so very much, Mr. Chairman. First of 
all, I want to congratulate you and thank you for this 
extremely important bill. It is timely. It is worded in such a 
way, I think, that it strongly encourages and admonishes Ankara 
to do the right thing. And you even point out in the bill, you 
and the ranking member, that there have been some aspects of 
progress, but it doesn't even come close, frankly, to where 
they ought to be.
    Let me just say to my friends and colleagues, unfortunately 
the State Department for years has always taken the view that 
we do not speak about human rights in a substantive way, even 
though the human rights report couldn't be clearer about those 
rights violations. I am the one who chaired the Armenian 
genocide hearing in this room years ago. We had a Turkish 
Ambassador come and testify, and he threatened us right from 
the witness table that if you bring up an Armenian genocide 
resolution we will take away your base in Incirlik. That kind 
of friend in the soft underbelly of NATO certainly underscores 
a weakness, and if that has a chilling effect on our ability to 
speak about human rights, shame on us.
    Let me also point out that today is Torture Victims Day. I 
have written four laws called the Torture Victims Relief Act. I 
am reintroducing a reauthorization for that legislation today, 
and I hope friends and colleagues here on this committee will 
join me in introducing that bill. There are torture victim 
centers in Ankara and in other parts of Turkey. Torture is 
endemic.
    I have held several hearings on the use of torture, and I 
have raised it in Ankara. And as chair of the OSCE 
Parliamentary Assembly and the Helsinki Commission, I will be 
in Baku tomorrow and will be meeting with members of the 
Turkish delegation. Mr. Chairman, I will put in each of those 
delegates' hands a copy of your resolution and we will have a 
dialogue. Friends don't let friends commit human rights abuses.
    Let me also point out that Reporters Without Borders makes 
it absolutely clear--I have chaired hearings on this, as well--
that the journalists, they claim, and they have good 
substantive background for it, there are 42 journalists in 
prison suffering because they dared to write the truth about 
what goes on or does not go on in Turkey, and especially if 
anyone mentions the Armenian genocide, watch out, they will be 
knocking on the door and it is off to the gulag for you. 
Seventy-two media people in all.
    Let me also point out that I will never forget, after 
George Bush, first Bush, after the Persian Gulf War, kind of, 
perhaps unwittingly, suggested that we had the backs of the 
Kurds, and it looked like they were looking to overthrow and 
topple Saddam Hussein. Next thing you know, they were all in 
flight. Talking about refugees, when it comes to Syria, Turkey 
has very little choice in the streaming of refugees, and we 
congratulate them for providing temporary housing and help for 
those who are coming across the border.
    When the Kurds came across the border, the line of 
demarcation between Turkey and Iraq was very strong. If it 
wasn't for our special forces, I would say to my friends, 
colleagues, we were there 4 or 5 days, after all of these Kurds 
came to the border and couldn't get across, we would have seen 
thousands of dead people, who happened to be Kurds, from the 
elements from sickness and even from attack.
    While we were there, a helicopter laden with foodstuffs for 
Kurdish refugees, women and children, and the elements were 
killing a lot of little children because it was cold--when 
people went to get the meals ready to eat, one of the Turkish 
soldiers shot and killed one of those who were just hungry 
beyond words. Our military, thankfully, helped keep things in 
check.
    They are friends. They are colleagues. They are allies. But 
we need to speak about human rights. And again, I think this 
very, very prudently written bill will make a difference. And 
we should not act out of fear because then it invites impunity 
in a sense that we can do whatever we want and the Americans 
and others who are concerned about human rights will muffle 
their criticism.
    So again, Mr. Chairman, thank you for this bill, as well as 
Ranking Member Eliot Engel.
    Mr. Connolly. Would my friend yield for a minute?
    Mr. Smith. Happy to yield.
    Mr. Connolly. I thank my friend.
    My only point is, I agree with him. We need to speak 
forthrightly about human rights and abuses that may occur and 
encourage democracy. It is how we say it that is important. And 
I respectfully believe that how this resolution is worded is 
going to be counterproductive.
    Mr. Smith. I understand that. But let me just say, if I 
could reclaim Mr. Royce's time, the churches, the Christians 
there, are under a constant cloud. The sword of Damocles hangs 
over them 24/7. This tells them we have their backs. And again, 
I think the chairman has crafted a bill that is very 
diplomatically articulated. And so I hope the members will 
support it.
    Chairman Royce. Mr. Sherman.
    Mr. Sherman. Thank you.
    I am a co-sponsor of this bill. I think it is well written, 
and I commend the chairman for it. Its passage will build upon 
the adoption of H. Res. 106, which we adopted in 2011, which I 
and many of us cosponsored, put the U.S. House on record 
calling for Turkey to return Christian religious properties. 
The vote was 43-1.
    This legislation is needed to address the ongoing 
destruction of Christian religious heritage in Turkey. This is 
a result of the Turkish Government's desecration in some cases 
and just failure to protect in other cases Christian holy 
sites. Because of this area's ancient history, so many of these 
churches are tied to an important global Christian heritage. 
Christians cannot legally train clergy in Turkey, any 
Ecumenical Patriarchate and the Armenian Patriarchate are 
prevented from owning and transferring property.
    The U.S. Commission on International Religious Freedom has 
listed Turkey as a serial violator of religious freedom for 
several years. The U.S. Commission on International Religious 
Freedom reported, over the previous 5 decades, the Turkish 
state has, using convoluted regulations and un-Democratic laws, 
they have used these to confiscate hundreds of religious 
minority properties, primarily those belonging to the Greek 
Orthodox community, as well as the Armenian Orthodox. The state 
has closed seminaries, denying these communities their right to 
train clergy.
    Despite a few public pronouncements vowing to return some 
religious property, as the U.S. Commissioner on International 
Religious Freedom reports, ad hoc announcements have not 
resulted in systemic changes in constitutional legal structures 
that would remedy violations of religious freedom for non-
Muslim minorities, some of which are on the verge of virtual 
disappearance.
    Now, there is the argument that Turkey will retaliate if 
anybody brings any of this to their attention. The fact is that 
France faced a similar issue about a decade ago when its 
Parliament recognized on the parliamentary floor the Armenian 
genocide. That, as members of this committee know, is a much 
bigger issue with Turkey than this resolution. The French 
Parliament passed that resolution with France being under 
threat by Turkey to cut the one thing France cared about, which 
was trade and French exports. After the French Parliament 
acted, French exports to Turkey tripled over the next 8 or 9 
years.
    So I don't think we should be dissuaded by bluffs, and I 
think this committee should at least show the fortitude and 
courage of the French Parliament. If we can't do that, why are 
we here?
    I will yield to the chair.
    Chairman Royce. We have two amendments, Mr. Grayson and Mr. 
Holding, that I was going to bring up on en bloc, but, Mr. 
Connolly, you referenced an amendment that you have at the 
desk.
    Mr. Connolly. Yes, Mr. Chairman.
    Chairman Royce. Do you want to offer that amendment?
    Mr. Connolly. Certainly. I have an amendment at the desk in 
the form of a substitute.
    Chairman Royce. The clerk will report the amendment.
    Mr. Walden. Substitute for the amendment in the nature of a 
substitute to H.R. 4347 offered by Mr. Connolly of Virginia. 
Strike all after the enacting clause and insert the following: 
It is the sense of Congress that Turkey has made progress in 
ending religious discrimination and in returning church 
properties to their owners. It is further the sense of Congress 
that the Secretary of State, in all official contacts with 
Turkish leaders and other Turkish officials, should emphasize 
that Turkey should (1) endeavor to end all forms of religious 
discrimination; (2) continue to make progress in allowing the 
rightful church and lay owners of Christian church properties, 
without hindrance or restriction, to organize and administer 
prayer services, religious education, clerical training, 
appointments, and succession, religious community gatherings, 
social services, including ministry to the needs of the poor 
and infirm, and other religious activities; (3) continue the 
ongoing process being undertaken by the Government of Turkey to 
return to their rightful owners all Christian churches and 
other places of worship, monasteries, schools, hospitals, 
monuments, relics, holy sites, and other religious properties, 
including movable properties, such as artwork----
    Chairman Royce. Without objection, the amendment will be 
considered read.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Royce. All members now have a copy of the 
amendment. The Chair recognizes the author to explain his 
amendment.
    Mr. Connolly. I thank the chair.
    This resolution is fairly simple. It recognizes progress 
has been made but much progress needs to be done. I listened my 
friend from California, Mr. Sherman, and I listened to my 
friend from New Jersey, Mr. Smith, and to listen to them would 
be to conclude, if one knew nothing else, that Turkey has 
apparently done nothing with respect to the return of Christian 
properties. The report cited actually also notes the return of 
864 properties worth $1.5 billion.
    In 2013 mass was held at Hagia Yorgi Church for the first 
time in 89 years. Baptismal service was observed at the Akdamar 
Church of the Holy Cross for the first time in 100 years. 
Structures that have been restored, preserved to begin 
restoring, include the Akdamar Church of the Holy Cross, Surp 
Vortvots Vorodman Church, St. Nicholas Church, Mor Petrus-Mor 
Paulus, and the Sahinbey Synagogue--and I am probably torturing 
the Turkic language here--lands associated with the Mor Gabriel 
Monastary have been returned, Heybeliada Theological School, 
Surp Giragos Church, Hagia Yorgi Church, Bomonti Mkhitarian 
School, and Galata Elementary School.
    Now, one could go on. We are trying to achieve a balance 
here where Turkey can work with the Christian communities to 
return Christian properties. I favor that. I voted for H. Res. 
306. But that was something that brought us together because it 
didn't gratuitously just bash Turkey throughout the resolution. 
And I am concerned that that kind of gratuitous language is 
going to get us into a situation where the relationship is far 
more complicated and the goals we all seek, in fact, will be 
retarded rather than progressed.
    And so I am urging my colleagues to vote for an alternative 
that expresses our sense of Congress with respect to the need 
for Turkey to have a lot more progress on the return of 
Christian properties, but avoids language that I think can be 
construed as inflammatory and unnecessary at a very delicate 
moment in that region of the world. And I urge my colleagues to 
support the resolution.
    With that, Mr. Chairman, I yield back.
    Chairman Royce. Thank you, Mr. Connolly. You know, I 
appreciate your amendment. I appreciate your perspective on 
these issues. I know that you have been deeply involved in this 
region of the world. But I am somewhat disappointed because as 
members, I know myself and Mr. Engel have worked very hard 
making many changes to the introduced text and accepting 
changes from members yesterday, and we did that in an effort to 
get this legislation to a place where I hoped all members could 
support it.
    And of course, that is not always possible. But we did make 
an effort, and in particular we amended the base text from its 
original version to include findings that note instances of 
progress on church property returns to Turkey, as you 
referenced. We make note of the 2011 reforms to the law on 
foundations, which provide a process for churches to apply to 
get their properties returned. We also note that since the 
enactment of this reform Turkey has returned over 300 
properties to the appropriate church authorities.
    And further, clauses 23, 24, 25, clause 27, they all point 
to positive developments in terms of church property being 
returned, religious ceremonies being allowed, and the historic 
meeting between Prime Minister Erdogan and the Ecumenical 
Patriarch Bartholomew back in 2009.
    But while recognizing these positive developments, there is 
an urgency on some of the issues that are before Turkey today. 
Progress on church returns, as everyone here knows, has been 
haphazard, it has been very slow. The 2014 U.S. Commission on 
International Religious Freedom report notes many religious 
communities regard this process as biased and of course very, 
very slow. And it highlights that over 1,000 applications by 
churches to have their property returned have been denied.
    But that said, even more troubling, this is why this 
resolution is before us today. Since that time, two ancient 
Byzantine-era Orthodox churches, which had been seized by the 
Turkish government rather than being returned to their rightful 
owners, have been converted into mosques. And as I referenced 
earlier, there is a proposal before the Parliament now to do 
likewise with the Hagia Sophia, the great church in Istanbul.
    That is one of the most significant religious sites for 
Orthodox Christians in the world. It is the former Eastern 
Orthodox Cathedral and seat of the Patriarchate of 
Constantinople for a thousand years, and for decades has 
symbolized Turkey's efforts to respect the rights of Christian 
minorities while promoting the country's secular democracy.
    I am, and I know many other members are pretty troubled by 
what this says about trends in Turkey. And we feel that if we 
take a stand we may be able to arrest what would otherwise be a 
very unfortunate circumstance here. Turkey has not acted 
positively since we passed the last resolution. We cannot 
expect sudden progress if we pass the same language again. We 
need to reference these discussions that are underway in Turkey 
and these events.
    And lastly, as to now is not a good time, that argument, 
which we have heard, and I partially answered that, but with 
all respect to my own legislation here, we are just making a 
report. Second, there has never been what has proven to be a 
bad time to raise it, if you think about it. This issue was 
raised, as I shared with you, by President Obama, and that was 
in 2009 when we were relying upon Turkey's support in isolating 
Iran and pressing Iran to abandon its nuclear ambitions.
    It was raised by our Vice President, Joe Biden, in 2011, 
when the Syrian conflict was beginning. It was discussed once 
again a few months ago by Secretary Kerry on a visit to Turkey 
and Cyprus as the situation in Syria worsened and as ISIS was 
gaining greater influence in Iraq. And each of these times, I 
think it is fair to say, there was no breach in relations or 
cooperative efforts with Turkey on key U.S. foreign policy and 
security issues. It was raised because it was important that 
the United States take a stand.
    And as I said, Turkey is a mature sovereign state. It 
measures its actions based on its calculation of what is in its 
best interests. When we have common interests, Turkey will back 
us; when we don't, it won't.
    And thirdly, I would ask why are we so sensitive? Do we 
change our fundamental policies every time a foreign government 
critiques us? No. Maybe a report will be used as an excuse, but 
a report isn't going to tip that balance away from cooperative 
relations between the United States and Turkey, in my opinion.
    And I urge my colleagues to join me in opposing this 
amendment. And I recognize Mr. Engel.
    Mr. Engel. Well, thank you, Mr. Chairman.
    I want to, first of all, commend Mr. Connolly. He is a good 
member of this committee and very thoughtful and we generally 
agree on most things, but on this one I have to respectfully 
disagree and oppose his substitute. I know his intentions are 
very, very well, very, very good.
    The question here, as the chairman has mentioned, let's put 
this in perspective. What are we doing here? We are mandating a 
report. We are not taking any punitive actions against Turkey. 
We are not hitting them over the head. We are mandating a 
report. And I think that we need to put that in perspective.
    The findings on our bill, the findings on the bill, the 
chairman's bill, is based on the U.S. Commission on 
International Religious Freedom report. It is also based on 
State Department Human Rights Report. So we are taking two 
reports that have been issued, and we are simply stating what 
these reports, which have already been done, are saying.
    Now, Turkey cannot have it both ways. You know, I am 
disturbed about recent trends in Turkey over the past several 
years by Mr. Erdogan. I am very much chagrined over what seems 
to be his authoritarian rule, his maneuverings to swipe away 
the secularism of the Turkish state, his attempts to neuter the 
military so that they are no longer a barrier in preventing the 
move toward an Islamist state in Turkey. I think those are very 
troubling.
    And I think, while Mr. Erdogan doesn't hesitate to tell the 
United States when he thinks we are doing something wrong, I 
don't think that we should hesitate to tell him. And they can't 
really have it both ways. On the one hand, they say, well, we 
are an ally so that should make you immune of any kind of 
criticism; on the other hand, when we look around and we have 
needed them, they haven't always been there.
    Yes, they are an important country, but we are not 
denigrating that importance. We are simply saying that the 
findings in our bill are based on the U.S. Commission on 
International Religious Freedom and the State Department Human 
Rights Report.
    The other thing to put this bill in perspective, there are 
no sanctions or any penalty against Turkey in the bill. It is 
just a statement of what we believe is fact, which has been 
documented and proven about Christian properties. And so that 
is what we are doing. It is a finding, again, based on the U.S. 
Commission on International Religious Freedom report, the State 
Department Human Rights Report, and we are not imposing any 
sanctions. So I don't see why the chairman's bill should be 
opposed. We are simply stating what is a fact. No one is 
disputing the fact.
    We are saying, well, Turkish sensitivities, they may not 
like it, it is poking a finger in their eye. Well, you know 
what, we are entitled to say what we feel and what we see. And 
since we are mandating a report here, we are not imposing any 
sanctions here, I think this is a very moderate bill and should 
be supported by everyone on both sides of the aisle.
    I yield back, Mr. Chairman.
    Chairman Royce. Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair.
    I would like to say, I want to speak against the substitute 
amendment from my dear colleague from Virginia and speak in 
support of the underlying H.R. 4347. You know, one of the 
groups, a little background, one of the groups that I belong 
to, in fact, that I am proud to be a member of, is the Tom 
Lantos Human Rights Commission. And last year, through the 
Commission's defending justice project, I adopted a Vietnamese 
prisoner of conscience named Mr. Nguyen Tien Trung. My role was 
to bring attention to Trung's plight, and I am proud to say 
that recently Trung was released from jail.
    And just this week, I adopted another prisoner of 
conscience in Vietnam, Pastor Nguyen Cong Chinh. Pastor Chinh 
was unjustly sentenced to 11 years in prison in 2012 for simply 
practicing his faith and exercising his right to religious 
freedom.
    These cases have raised my awareness of religious 
intolerance around the globe, particularly in cases where it is 
systemically and institutionally practiced by various 
governments.
    The reason why we are here today and talking about this 
amendment and the underlying resolution is another sad 
situation where a government is actively hindering its own 
citizens' freedom of religion.
    There is no denying that the Republic of Turkey has a poor 
record on the treatment of Christians, and that is why the 
substitute amendment does not go far enough. Christian churches 
and communities in the Republic of Turkey and in Northern 
Cyprus continue to be prevented from fully practicing their 
faith and face serious obstacles to reestablishing full legal, 
administrative, and operational control over stolen, 
expropriated, confiscated, or otherwise unreturned churches, 
and other religious properties and sites.
    It should be pointed out that in the 3 years since the 
Republic of Turkey revised its law to provide legal process for 
claims to the return of religious properties that it has 
confiscated, that more than 300 Christian church properties 
have been returned. However, it is an encouraging sight, but 
with more than 1,000 applications for the return of the 
properties being denied by the Turkish Government, it is clear 
that much more needs to be done. The only way we are going to 
change this situation is to convince the Republic of Turkey, 
and that is through international pressure. And that is why I 
think this amendment does not really deal with the underlying 
factors. And I oppose the substitute motion and encourage the 
support of H.R. 4347.
    And I yield back.
    Chairman Royce. Hearing no further requests for 
recognition--oh, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I begin by saying I have tremendous respect for my 
colleague from Virginia, who I rely on a lot as a new member of 
this committee, a new Member of Congress, and admire his 
thoughtful approach to this issue and to all the work before 
our committee, but I most respectfully oppose his amendment.
    I think it is correct that we have to be careful about both 
what we say and how we say it. And this underlying resolution, 
or bill, sends a message and creates the reporting requirement. 
But the substitute amendment offered by the gentleman from 
Virginia, I think, makes assertions that just aren't true: ``It 
is the sense of Congress that Turkey has made progress in 
ending religious discrimination.''
    We have the United States Commission for International 
Religious Freedom 2014 report, where they say,

        ``Turkish secularism, as codified in the 1982 
        constitution, requires absolute state control over 
        religion, which leads to governmental interference and 
        restrictions that hinder full religious freedom in the 
        country. The government limits all religious groups' 
        rights to own and maintain places of worship, train 
        clergy, and offer religious education. This has been 
        particularly detrimental to the smallest minority 
        communities and their ability to transmit their faith 
        to future generations. Other concerns include the 
        listing of religious affiliation on national identity 
        cards, societal discrimination, anti-Semitism, and 
        persistent religious freedom violations in the Turkish-
        occupied northern part of Cyprus. Finally, it should be 
        noted that the overall landscape for democracy and 
        human rights has deteriorated significantly during the 
        past year.''

    So I don't think we should express the sense of Congress 
that Turkey has made progress in ending religious 
discrimination. In fact, the report goes on to say that they 
heard views from some religious minority communities that 
conditions had worsened and that the steps taken were 
negligible, as well as concerns that the improvements, which 
are not codified in law, could be easily revoked, especially in 
the current political environment.
    So I do think, while some progress has been made on the 
return, or some efforts have been made on the return of 
property--that is reflected on page 3, paragraph 7. The 
underlying resolution acknowledges that. But this is an 
opportunity for us to again state, or to share our values, to 
demonstrate that this is an important priority for our country, 
an important shared value. And I urge my colleagues to reject 
the substitute amendment and adopt H.R. 4347 as originally 
proposed.
    And, with that, I yield back.
    Chairman Royce. Hearing no further requests for 
recognition, the question occurs on the Connolly amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to.
    I now ask unanimous consent that the following two 
amendments that were provided to members yesterday be 
considered en bloc and be considered read: Grayson Amendment 
No. 284 and the Holding Amendment No. 851.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Royce. Do any members seek recognition to speak on 
these amendments en bloc?
    Mr. Grayson.
    Mr. Grayson. Thank you.
    With regard to my amendment, Mr. Chairman, it is simply a 
matter of making sure that the terms are accurate and that we, 
to the extent we can, avoid language that might be misconstrued 
by any party. That is the purpose of my amendment.
    I yield back.
    Chairman Royce. Thank you, Mr. Grayson.
    Mr. Holding?
    Mr. Holding. Mr. Chairman, I thank you for recognizing me 
and want to thank you for all the work you have done advocating 
for religious freedom across the globe. It is certainly an 
issue that I know is of great importance to many members of 
this committee and Members of Congress.
    In this committee, under your leadership and the leadership 
of Chairman Smith, we have examined the plight of many across 
the world who are prohibited from freely and safely practicing 
the religion of their choosing.
    As part of a delegation to Turkey last year, I had the 
opportunity to meet with Christian church leadership while in 
Istanbul. And there I heard firsthand about the ongoing 
difficulties in the process to get church properties not only 
returned but correctly identified in the inventory. However, it 
was also expressed that, while this process was not proceeding 
as expeditiously as it should be, the Government of Turkey and 
local communities had been making strides, and positive 
developments were noted.
    That being said, Mr. Chairman, it is certainly my belief 
and, I believe, the belief of many here today that more can and 
should be done to move this process in the right direction. 
While the base text before us today does note some of the 
positive developments, I believe more could be added to 
recognize some of these positive developments, which is 
precisely what my amendment seeks to do.
    So I urge support, and I appreciate the chairman and 
ranking member's support for my amendment.
    And I yield back.
    Chairman Royce. Well, thank you, Mr. Holding.
    I appreciate Mr. Grayson and Mr. Holding's contribution.
    And the question now occurs on the Grayson and Holding 
amendments, considered en bloc.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendments en bloc are agreed to.
    Are there any other amendments?
    Hearing no further amendments, the question occurs on 
adopting H.R. 4347 as amended.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the bill 
as amended is agreed to.
    Without objection, H.R. 4347 as amended is ordered 
favorably reported as a single amendment in the nature of a 
substitute. Staff is directed to make any technical and 
conforming changes.
    As all members were previously notified, we now intend to 
consider en bloc the remaining seven bills, whose base texts 
were circulated on Tuesday. All of the amendments to those 
texts that were provided to your office, you got those 
yesterday. And so, without objection, the following items will 
be considered: H.R. 2283, the Human Trafficking Prioritization 
Act; Smith Amendment No. 58 in the nature of a substitute to 
that bill; and Smith Amendment No. 60 to that amendment; H.R. 
4411, this is the Hezbollah International Financing Prevention 
Act; the Royce Amendment No. 120 in the nature of a substitute 
to the bill; the Poe-Sherman Amendment No. 92; and the 
DeSantis-Deutch-Meng Amendment No. 5; then we go to H.R. 4640, 
the Western Hemisphere Drug Policy Commission Act; the Engel 
Amendment No. 60 in the nature of a substitute to H.R. 4640; 
and the Castro Amendment No. 36; then H.R. 4653, the U.S. 
Commission on International Religious Freedom Reauthorization 
Act; the Smith Amendment No. 55 in the nature of a substitute 
to the bill; and the Meng Amendment No. 47; next, we have House 
Resolution 435, calling on the Government of Iran to assist in 
the case of Robert Levinson; and Ros-Lehtinen Amendment No. 49 
in the nature of a substitute; next is House Resolution 562 
with respect to enhanced relations with the Republic of 
Moldova; and Royce Amendment No. 123 in the nature of a 
substitute; finally, House Resolution 588, concerning the 
suspension of exit permit issuance by the Democratic Republic 
of the Congo for adopted Congolese children; we have the Smith 
Amendment 57 in the nature of a substitute, and the Royce 
Amendment No. 122 to that amendment.
    [The information referred to follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Royce. After opening remarks by myself and Ranking 
Member Engel, I will be glad to recognize any member seeking 
recognition to speak on the en bloc items.
    So, first, let me thank Chairman Smith for authoring his 
bill, the Human Trafficking Prioritization Act. The fight 
against modern-day slavery has long been a priority for this 
committee. The annual report and country rankings by the State 
Department's trafficking office have turned trafficking into a 
global policy priority.
    But this annual work is a tug-of-war--a tug-of-war between 
those charged with assessing trafficking conditions and State 
officials concerned with the potential diplomatic fallout from 
stating very hard truths.
    This bill is intended to help level the playing field by 
elevating the trafficking office to a bureau, without 
additional cost or personnel.
    Next, we have H.R. 4411, the Hezbollah International 
Financing Prevention Act. It was good to work with Mr. Meadows, 
Mr. Schneider, and Mr. Engel on this critical legislation.
    The threat posed by Hezbollah's global operations, aided by 
a vast financial network, has exploded. In 2011, we saw the tip 
of the iceberg when a massive drug and money-laundering 
operation for Hezbollah's benefit in weapons, logistics, and 
training were uncovered.
    To increase the risk in dealing with Hezbollah, the bill 
would target those financial institutions that knowingly do 
business with what has been called the ``A-Team of 
terrorists.''
    Then, H.R. 4640, the Western Hemisphere Drug Policy 
Commission Act, sponsored by Mr. Engel. The ranking member has 
been deeply involved in these issues, as has Subcommittee 
Chairman Salmon.
    The bill establishes an independent commission to conduct a 
comprehensive review and make recommendations on U.S. efforts 
to reduce the supply of illicit drugs. This includes an 
evaluation of the link between the illegal narcotics trade in 
this hemisphere and terrorist activities around the world.
    H.R. 4653 will continue the good work of the United States 
Commission on International Religious Freedom.
    The Commission is an independent body of distinguished 
experts who advocate for the first freedom of religious 
practice.
    This function has become even more critical as the State 
Department has dropped the ball in prioritizing religious 
freedom. So the Department has failed to make the required 
annual designations of the countries of particular concern for 
religious-freedom violations since 2011. And the Ambassador-at-
Large position for international religious freedom has been 
vacant now for a total of more than 3 years.
    So this bill carries forward the important work of this 
streamlined body and includes some needed management 
improvements.
    House Resolution 435 addresses the case of U.S. citizen 
Robert Levinson, who disappeared in Iran 7 years ago.
    The Iranian regime has continually obstructed U.S. 
Government efforts to investigate his disappearance, despite 
promises of assistance. And this individual and his family 
deserve our every effort to secure his freedom and safe return 
home.
    And I want to commend Mr. Deutch for his relentless efforts 
in securing Mr. Levinson's release.
    House Resolution 562 voices U.S. support for our relations 
with Moldova and for that country's sovereignty. They have had 
a long, difficult path.
    Democratic reforms have not come easily, but the Moldovan 
people have persevered, have absolutely persevered, in their 
expressed desire to join more fully with the West and with 
Europe. And, recently, the Russian Government has enforced 
trade embargoes and threatened the cutoff of energy supplies as 
consequences.
    This resolution stands by Moldova, and we urge its support.
    Finally, House Resolution 588. The Democratic Republic of 
the Congo has suspended exit permits for Congolese children 
adopted by foreign parents, affecting hundreds of families.
    And, at this time, I would just like to briefly recognize 
the families that are here today from across the United States 
who have been impacted by the actions of the Congolese 
Government. We are going to ask them to stand for a minute, 
those who are here, the families, if you would.
    And I want them to know we will continue to do everything 
we can for your families. Thank you very much for attending 
this hearing today.
    And, as you can see, some of them are holding pictures of 
their adopted children. These children are barred from leaving 
the country to join with their parents here, even though the 
courts have declared these parents as their legal guardians. 
Nine hundred American cases are caught up in this adoption 
limbo, and that breaks a lot of hearts here in the United 
States, and it breaks a lot of hearts of children in Congo.
    I witnessed firsthand the power of providing a child with a 
loving home when my chief of staff, Amy Porter, who is here 
with us, adopted internationally. And these children must be 
allowed to make their way to homes that desperately want to 
care for these children.
    Congressional approval of this resolution, of course, will 
send a strong message to Kinshasa that we need to unite these 
families.
    I now recognize the ranking member for his remarks on the 
en bloc items.
    Mr. Engel?
    Mr. Engel. Thank you, Mr. Chairman. Thank you for holding 
this important markup. And, once again, I am grateful that we 
could work together in bipartisan fashion on all of these 
measures.
    First of all, let me express my strong support for H.R. 
4411, the Hezbollah International Financing Prevention Act.
    Hezbollah has continued to terrorize the globe, reaching 
into Latin America, Europe, Asia, and across the Middle East. 
How does Hezbollah fund this violence and terrorism? 
Kidnappings and ransom, conflict diamonds, narcotrafficking, 
and other criminal enterprises. Claims that Hezbollah is simply 
just a political organization or a social services agency are 
simply naive. And this bill exposes the group for what it is: A 
vicious terrorist organization with a global footprint.
    This legislation goes after financial institutions that 
knowingly support Hezbollah. It is modeled after the 
Comprehensive Iranian Sanctions and Divestment Act of 2010. And 
that measure worked. It was one of the prime causes of the 
severe economic downturn that brought the Iranians to the 
negotiating table.
    H.R. 4411 also focuses on Hezbollah's efforts to spread 
hateful propaganda through its media outlet, Al-Manar, which 
is, in itself, a specially designated terrorist group.
    Through sanctions, we hope to cut off Hezbollah's lifeline 
and prevent future terrorist attacks.
    I want to thank Representatives Meadows and Schneider for 
their thoughtful leadership on this issue and their bipartisan 
work.
    And thank you, Mr. Chairman, for moving this forward, 
especially at this critical time.
    Next, Mr. Chairman, I would like thank you for bringing up 
H.R. 4640, my Western Hemisphere Drug Policy Commission 
legislation. Let me also thank Congressman Salmon, who is the 
lead Republican cosponsor of this legislation, a great partner 
of mine, and strongly committed to a strong U.S.-Latin American 
partnership.
    Despite at least $15.7 billion spent on counternarcotics 
programs in Latin America and the Caribbean between 1980 and 
2012, illicit drug use in our country remains high. In 2012, 
there were around 24 million illicit drug users in the United 
States. And while cocaine use at home is declining, heroin use 
is on the rise. In fact, heroin overdose deaths in the United 
States increased by an alarming 45 percent between 2006 and 
2010.
    This bill would create an independent commission to take 
stock of what is working, what isn't, and help guide the future 
of U.S. drug policy through recommendations submitted to 
Congress, the Secretary of State, and the Director of the 
Office of National Drug Control Policy. This commission will 
save our Government money in the long run. Its recommendations 
will help ensure that we are getting the biggest bang for our 
buck as we tackle this problem in Latin America and the 
Caribbean.
    A similar bill passed the House of Representatives 
unanimously in 2009 but stalled in the Senate. This year, I and 
Mr. Salmon are determined to get this legislation onto the 
President's desk.
    I would also like to express my support for H. Res. 435, 
which calls attention to the disappearance of Robert Levinson 
in Iran more than 7 years ago. The United States has repeatedly 
raised Mr. Levinson's case with the Iranian Government. Now is 
the time for Iran to make a good-faith effort to bring Robert 
Levinson home. Thanks to the leadership and tireless work by 
Representative Deutch, Mr. Levinson's Congressman, this 
resolution with lend a new sense of urgency to this effort.
    Mr. Chairman, I would like to commend our committee 
colleague, Representative Chris Smith of New Jersey, as well as 
Representative Wolf for their leadership on international 
religious-freedom issues and for their work on H.R. 4653, which 
reauthorizes the U.S. Commission on International Religious 
Freedom.
    Article 18 of the Universal Declaration of Human Rights 
states that everyone has the right to freedom of thought, 
conscience, and religion. This right includes the freedom to 
manifest his religion or beliefs in teaching, practice, 
worship, and observance. Nevertheless, every day religious 
communities around the world are subject to escalating 
violence, persecution, and discrimination. USCIRF is pushing 
back against violations and helping to uphold our most 
cherished values.
    I would like to again thank Mr. Smith for introducing H.R. 
2283, legislation that would elevate the Office to Monitor and 
Combat Trafficking to the status of a bureau within the State 
Department.
    Human trafficking, as Mr. Chris Smith has always pointed 
out, is a modern-day slavery and one of the most offensive 
violations of a person's freedom and dignity. Around the world, 
as many as 27 million people are victims of this heinous crime.
    Elevating this trafficking office to a bureau will send a 
message that combating modern-day slavery is a priority for the 
United States. I urge my colleagues to support this important 
legislation.
    Mr. Chairman, let me also express my strong support for H. 
Res. 562, a resolution introduced by Representative Pitts. This 
measure reaffirms our support for the sovereignty, 
independence, and territorial integrity of Moldova, expresses 
strong support for strengthened U.S.-Moldova relations, and 
affirms that Moldova has a sovereign right to determine its own 
partnerships, free of external coercion and pressure. I am 
delighted that tomorrow Moldova will sign an association 
agreement with the EU.
    The resolution also calls on Russia to remove its forces 
from the Transnistria region of Moldova and urges all parties 
to work for a peaceful resolution to the Transnistria issue.
    I have met with Moldovan officials. They want to look 
westward rather than eastward. They are frightened to death of 
Russia's aggression, and it is very important that the United 
States stand by them. This resolution does that, and I am very 
proud of it.
    And, finally, Mr. Chairman, we are taking up H. Res. 588, a 
resolution introduced by Representative Peterson on adoptions 
from the Democratic Republic of the Congo. We have seen all 
these brave parents stand up before.
    The Government of the DRC has stopped issuing exit permits 
for adopted children, affecting hundreds of children who were 
set to be taken in by loving families. This is a terribly 
painful situation that we need to help resolve.
    This resolution recognizes the importance of ethical and 
transparent adoptions, and it seeks to raise awareness about 
the plight of the families currently stuck in limbo over these 
suspended permits. It encourages dialogue between the 
governments of the U.S. and DRC to find a path forward on this 
issue. And I urge my colleagues to support it.
    So, in closing, Mr. Chairman, I would like to once again 
thank you for holding this markup and for working with our side 
of the aisle in a bipartisan manner.
    I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Do any other members seek--Mr. Smith?
    Mr. Smith. Chairman, thank you very much. And thank you for 
bringing these very important pieces of legislation to the full 
committee and, hopefully, to the floor very shortly.
    H.R. 2283, the Human Trafficking Prioritization Act of 
2013, is a bipartisan piece of legislation. We have 91 
cosponsors, including some 13 who are members of this 
committee. I want to thank Karen Bass for her co-sponsorship 
and, again, all the other members of the committee and the 
subcommittee.
    The Human Trafficking Prioritization Act will keep the 
fight against human trafficking from being downgraded or 
trivialized in the shuffle of politics of other U.S. interests.
    In the 14 years since my legislation, the Trafficking 
Victims Protection Act of 2000, was signed into law, 
legislation that created the State Department's Office to 
Monitor and Combat Trafficking Persons, commonly known as the 
TIP office, many countries have said that they have 
strengthened their own trafficking laws--as a matter of fact, 
more than 130 of them--because of U.S. leadership, guidance, 
prioritization, and accountability.
    The metamorphosis that has happened throughout the world 
really can relate squarely to U.S. leadership, carried out so 
effectively and faithfully by the personnel at the TIP office. 
There are some 65 people who make up that office. Our 
Ambassador-at-Large, Luis CdeBaca, is doing an outstanding job. 
And in every Embassy in the world, when Members travel, there 
is always one person, at least, who is tasked in the Embassy to 
work on trafficking issues. We hope our Ambassadors and DCMs 
will also make it a high priority.
    We have found a strategy that works. Now is the time to 
build on successes, however, for the sake of the 21 million 
people--Free the Slaves puts that number at 27 million people--
who are captives of modern-day slavery. And we can do it 
without increasing the cost of government.
    H.R. 2283 will raise the status of the TIP office to that 
of a bureau within the State Department bureaucracy without 
creating new costs. These changes simply give TIP the latitude 
it needs, the voice it deserves, and, above all, the line 
authority within State that it requires. It gives the 
Ambassador-at-Large who heads it equal stature with the 
regional and the functional bureaus.
    Mark Lagon, who was the Ambassador-at-Large to Monitor and 
Combat Trafficking in Persons from 2007 to 2009, testified here 
that the State Department does a tremendous job in producing a 
report which tells it like it is, offering objective rankings. 
Yet, at times, he pointed out, it pulls punches, typically due 
to the urging of regional specialists rather than the TIP 
office specialists dedicated to trafficking. This bill will 
give the State Department's trafficking team the leverage 
necessary to allow it to advocate most effectively on behalf of 
the victims of trafficking.
    And we saw a need for this just last week when China 
undeservedly received an upgrade from Tier 3, an egregious 
violator of human trafficking, to Tier 2 Watch List, despite 
their atrocious record on trafficking.
    Hence, I am offering another amendment that limits the 
ability--it is in the en bloc--so that, the 4-year cycle of 
being on the Watch List--is as long as it can be. There has to 
be an automatic movement up or down after 4 years. After you 
have been downgraded to Tier 3 after the 4 years, you get 1 
more year, not a recess of 4 more years. And China would game 
that system, believe me, for another 4 years, and they would 
stay off being cited, and potentially sanctioned, by the 
provisions of the law.
    Next, I want to mention H.R. 4653, which reauthorizes the 
U.S. Commission on International Religious Freedom, or USCIRF.
    In 1998, Congress had the foresight to make the protection 
and promotion of religious freedom a priority in U.S. foreign 
policy by creating an Ambassador-at-Large for Religious 
Freedom, the Office of International Religious Freedom at the 
Department of State, and, so very importantly, the U.S. 
Commission on International Religious Freedom.
    Importantly, this landmark piece of legislation, authored 
by Chairman Frank Wolf, IRFA, created a system for naming and 
taking action against Countries of Particular Concern, or CPCs. 
History has shown that when the U.S. makes religious freedom a 
priority and that priority is conveyed to Countries of 
Particular Concern, we have seen conditions improve, with 
minimal harm to security or economic cooperation, but, frankly, 
human rights ought to trump that. And, in this case, it does 
mean that prisoners are set free, and the record is replete 
with those examples.
    Two and a half years ago, there were some problems with the 
reauthorization of USCIRF. It got bogged down in the Senate. I 
don't think that will happen this year. It has to be 
reauthorized by the end of this fiscal year or it becomes 
defunct.
    Dr. Robert George, who is the chairman of the Commission, 
testified here just a few weeks ago before my subcommittee. And 
if any Member travels anywhere, I strongly urge you to read 
their reports. They are incisive, they are accurate, they have 
action items, and those action items go to the country that is 
committing deplorable acts against religious believers and 
leaders, clerics, bishops, and the like, but it also admonishes 
the administration and Congress to take effective action.
    For example, the President has not designated CPC 
countries, which is supposed to be done on an annual basis, 
since 2011. We have asked the President, we have asked the 
Secretary of State repeatedly, and USCIRF, Dr. George testified 
to that effect. Name those countries, and, please, apply 
sanctions where they are necessary.
    And, finally, a brief word about the very important 
legislation authored by Collin Peterson from Minnesota on the 
Democratic Republic of the Congo and the parents, some of whom 
are here. The government took the ill-advised action of cutting 
off adoptions. Many of those were already well into the 
process. Collin Peterson has picked up that baton, and he is 
pushing very hard. This will help.
    And, again, to the families that are here, Congress has 
your back. We will do everything we can. I have been to DR 
Congo a number of times, along with Greg Simpkins. They need to 
listen. A home is awaiting kids who are orphaned. Thank you for 
your generosity.
    And I yield back.
    Chairman Royce. Thank you.
    Mr. Deutch?
    Mr. Deutch. Thank you, Mr. Chairman.
    And I want to thank you and Ranking Member Engel for 
bringing forward these important bills today.
    I want to especially thank you both, as well as my 
colleague on the Middle East and North Africa Subcommittee, 
Chairman Emeritus Ros-Lehtinen, for your continued support of 
House Resolution 435, which calls on the Government of Iran to 
fulfill its promises of assistance in the case of my missing 
constituent, Robert Levinson.
    Thanks to so many of our colleagues on this committee who 
have spoken passionately in the past about securing the release 
of the three American citizens detained in Iran.
    Robert Levinson disappeared from Kish Island, Iran, on 
March 9th, 2007, 2,664 days ago. That is 2,664 days that his 
wife of 40 years, Christine, and their seven children have gone 
without their husband, their father, and now their grandfather. 
He has missed the birth of three grandchildren in the years 
since his disappearance.
    When Bob first disappeared, the U.S. was not sitting across 
the table from Iran. Today, we meet almost weekly. And I know 
that our team raises Bob and other American citizens' cases in 
every meeting, and I am grateful for that. If Iran wants to 
show the world that they can be trusted, whether they can be 
taken at their word, then come through on the promise to assist 
in reuniting Bob Levinson with his family.
    Mr. Chairman, last week in our subcommittee markup, I spoke 
at length about the Levinson family and about Bob's commitment 
to his country over his 30-year career as an FBI agent. Today, 
I simply want to remind everyone watching here and around the 
world that the United States Congress has not and will not 
forget about Bob Levinson.
    I would also like to commend the chairman, Ranking Member 
Engel, and Congressmen Meadows and Schneider for working to 
advance our efforts to crack down on the Iranian-backed 
terrorist organization, Hezbollah. Thanks for working with me 
and my colleagues, Mr. DeSantis and Ms. Meng, to include the 
language that would require reporting on steps other countries 
are taking to disrupt Hezbollah's illicit networks operating 
throughout the world.
    This legislation will help expose Hezbollah for what it 
really is: A global criminal and terror enterprise that uses 
every available avenue to fundraise and finance terror 
activities around the world. To say that Hezbollah is a 
resistance organization or a political party with a separate 
military wing is simply false.
    In just the past few years, we have seen Hezbollah plot and 
launch attacks in Europe, fully back--fully back and assist the 
murderous Assad regime in Syria, and expand its criminal 
activity in Latin America. We know that Hezbollah's 
fingerprints can be found on a broad range of activities in all 
of those countries and in Africa, a whole range of activities 
from counterfeiting and credit card fraud to fundraising to 
weapons trafficking. Hezbollah members and supporters operate 
front companies, as well as legitimate businesses, used for 
money laundering and other fraud schemes.
    So as we continue to have a debate with some of our friends 
and allies as to whether it is possible to distinguish 
Hezbollah's political operations from its terrorist wing--and 
we know that it is not--this amendment will help us get a 
clearer picture not only of Hezbollah's reach but what other 
countries are doing to disrupt Hezbollah's global operations.
    In addition, this language will ensure that the 
administration briefs Congress on these activities, ensuring 
close consultation as we work together to thwart Hezbollah's 
worldwide terrorism.
    Thanks again to the chairman and the ranking member for 
working to make these measures bipartisan. It is critical that 
Congress shows that it is united on these vital security 
measures, and I appreciate it, Mr. Chairman.
    I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    Mr. Chabot?
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief.
    I want to particularly associate myself with H.R. 4411, the 
Hezbollah International Financing Prevention Act, introduced by 
the gentleman from North Carolina, Mr. Meadows. The legislation 
is certainly timely, in view of the developments in Lebanon and 
the Middle East region in general and the nefarious role 
Hezbollah is playing.
    Hezbollah's sources of power have always been, in addition 
to Iranian-supplied weapons, financial transactions and foreign 
donations that keep the wheels of this terrorist organization 
running. Sanctioning entities that do business with Hezbollah 
is a significant step in our efforts to confront this issue.
    So I want to commend the gentleman from North Carolina, Mr. 
Meadows, for introducing this legislation, and I urge my 
colleagues to support it.
    I yield back the balance of my time.
    Chairman Royce. We go to Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman and Ranking Member Engel.
    I appreciate the incorporation of the DeSantis-Deutch-Meng 
amendment to the Hezbollah International Financing Prevention 
Act.
    This amendment strengthens sanctions against Hezbollah by 
enabling the disruption of Hezbollah's global logistics 
networks and its fundraising and money-laundering activities. 
Furthermore, it requires the Obama administration to shed light 
on those countries that either overtly or covertly enable any 
sort of Hezbollah activities within their borders.
    This provision is particularly important in the Hezbollah 
context, because there are far too many countries that 
outwardly condemn Hezbollah's military and terrorist activities 
while privately fostering environments where Hezbollah can 
operate politically and financially. Well, no more, not if you 
want to do business with the United States.
    I thank Mr. DeSantis and Mr. Deutch for their leadership 
and partnership, the sponsors of the bill for crafting such 
important legislation, and the committee staff for all their 
hard work in putting it all together.
    I would also like to thank the committee for accepting my 
amendment to the United States Commission on International 
Religious Freedom reauthorization legislation. USCIRF is 
invaluable, and I am proud to be a cosponsor of this 
reauthorization bill and to support its passage today.
    My simple amendment revises the applicable 
antidiscrimination laws relating to USCIRF to bar 
discrimination at the Commission on the basis of religion. This 
is only fitting for a commission that is devoted to religious 
freedom. It is also appropriate given the sensitivities 
regarding which violations of religious freedom around the 
world the Commission chooses to focus on.
    My hope is that this amendment will help ensure the 
diversity, credibility, and strength of the Commission for a 
long time to come.
    I thank Congressmen Wolf and Smith for their leadership on 
these important issues, as always, and Janice Kaguyutan and 
Doug Anderson for their assistance with my amendment.
    I yield back.
    Chairman Royce. Thank you, Ms. Meng.
    We go to Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I want to thank you and the ranking member for bringing all 
of this legislation up today. It is a good day in the Foreign 
Affairs Committee, all of this important legislation.
    I want to talk about four of the bills in the time that I 
have, first the trafficking legislation that Mr. Smith has 
sponsored; I commend him for his long endurance in making sure 
that international trafficking is something that we recognize 
is a problem and the work that he has done over the years.
    And now Congress, 2 weeks ago, we passed the Justice for 
Victims of Trafficking Act out of the House, bipartisan 
legislation authored by Carolyn Maloney and myself, a unanimous 
decision on a rollcall vote of all Members of Congress that 
voted, going after the traffickers, the demand, and, of course, 
rescuing children.
    And that is a worldwide problem. That is a national 
problem, as well. Unfortunately, my hometown of Houston, Texas, 
is the hub for international minor sex trafficking that comes 
into the United States. And this legislation, along with the 
Justice for Victims of Trafficking Act, will let the world know 
where the United States stands on the issue of trafficking: 
That kids are not for sale--not here, not there, not anywhere.
    Hezbollah, a terrorist organization. I commend Mr. Meadows 
for bringing this legislation up.
    My amendment to this legislation encourages the State 
Department to offer the rewards program to get information 
about Hezbollah's finances and where that money comes from. It 
is the old-fashioned, kind of the code of the West, the 
``wanted'' poster. You post up some outlaw's photograph--we 
just say ``wanted'' now, not ``dead or alive,'' just 
``wanted"--information about them, and other outlaws give 
information to the good guys and they pay to get their buddies 
arrested.
    That has always worked. It has worked in the past with 
legislation that is already on the books. It has worked in 
Colombia. It has worked in other parts of the country, or other 
parts of world, as well. So I thank Mr. Meadows, but, also, I 
think this amendment will help put some teeth in it and go get 
some folks brought to justice.
    The other point I want to--the legislation is Moldova. I 
met with Members of the Parliament from Moldova; they came over 
here. They were nervous. They are worried. They think the 
Russians are coming and they are next.
    And we need to recognize the world the way it is, that 
Putin sees himself as Czar Nicholas III. He wants the Russian 
Empire again. He went into Georgia. Mr. Smith was in Georgia 
right after the Russians were there. I was there about a week 
after him. We saw those tanks on the border with Russia and 
Georgia. Russia took one-third of the country, and the Russians 
are still in Georgia. They waited a few years; they took 
Crimea. Now they are in eastern Ukraine, and I don't see them 
stopping.
    So, the West, primarily the United States, needs to make 
sure that the Russians know we are not Chamberlain, we are 
going to act like Churchill. When it comes to aggression, and 
let the Moldovans know that the United States sees them as a 
partner and ally, and Czar Nicholas III needs to stay away from 
Moldova.
    And the last group I want to talk to are these wonderful 
mothers that are here.
    Thank you. God bless you for your tenacity--I can't even 
say it right--tenacity and going and getting your children. 
That is something that is just neat. It is great. It is God's 
work.
    I have 11 grandchildren, and my newest one, a 4-month-old, 
is a special child. They are all special, but she is adopted. 
And my youngest daughter and her husband adopted a child. And 
when you get to pick the child, it is just--it is neat.
    So thank you for your work in rescuing children in this 
humanitarian effort, saving one child at a time. And thank you 
for your perseverance with Congress, hoping we can get in this 
case the Congo to do what is right. And so thank you for that.
    And, Mr. Chairman, I will do something I rarely do; I will 
yield back the rest of my time
    Chairman Royce. Thank you, sir. Thank you, Judge.
    Mr. Schneider?
    Mr. Schneider. Thank you, Mr. Chairman.
    I want to thank the chairman for the time and for the 
tremendous bipartisanship you have shown in this committee in 
general and, in particular, with respect to H.R. 4411, to 
address one of most critical national security challenges we 
face.
    A special thank you to my good friend, Mark Meadows, who, 
with me, initiated this bill, along with the chairman and 
ranking member, for their tireless effort on this important 
piece of legislation.
    I would also like to thank the outstanding effort of the 
majority and minority staff, along with Ansley Rhyne from Mr. 
Meadows' staff and Tyler Stapleton from my staff, who have put 
so much time into perfecting this bill.
    The Hezbollah International Financing Prevention Act is a 
leap forward in combating the threat of global terrorism 
financing.
    We have known for years that the international terrorist 
organization Hezbollah has planned, funded, and executed 
terrorist attacks in the Middle East, Europe, and the Western 
Hemisphere. Hezbollah continues to use underground networks and 
illicit materials to fundraise their global instability 
efforts. They have used U.S. and European banks, along with 
their subsidiaries, to hide and launder money out of South 
America and Europe to help finance thousands of Hezbollah 
operatives around the globe.
    One must only look at some of Hezbollah's past acts to 
understand the true threat they pose to U.S. national security. 
In 1983, Hezbollah bombed the U.S. barracks in Beirut, killing 
241 Marines. In 1992, Hezbollah bombed the Israeli Embassy in 
Buenos Aires, killing 29. In 1994, Hezbollah bombed the AMIA 
Jewish cultural center in Argentina, killing 85.
    In 2006, Hezbollah operatives conducted cross-border raids 
into Israel, kidnapping IDF soldiers, which led to a 34-day 
military conflict between Israel and Lebanon. In 2011, reports 
indicated that Hezbollah was behind the bombing in Istanbul 
that wounded eight Turkish citizens. In 2012, authorities 
apprehended a Hezbollah operative planning terrorist activity 
in Cyprus against civilians and commercial airlines. In 2012, 
Hezbollah bombed a tourism bus in Burgas, Bulgaria, killing six 
Israeli tourists and their Bulgarian driver.
    These are just a few of the activities of Hezbollah that 
have targeted U.S. interests and our allies around the world. 
We can and must do more to stem the global financing of these 
activities. Today we have the opportunity, and I hope that my 
colleagues will join in combating this pressing threat to U.S. 
national security.
    The Hezbollah International Financing Prevention Act 
provides the administration with important tools to go after 
financial institutions and satellite providers that provide 
material support and propaganda tools to Hezbollah. This 
important effort will result in fewer resources falling into 
the hands of terrorists who have shown great resilience in 
attacking Western targets in addition to their destabilizing 
efforts in the Middle East.
    I want to again thank the chairman and ranking member, 
along with Mark Meadows, for working with us to introduce this 
important legislation. With more than 300 co-sponsors in the 
House, I hope that this committee will support its passage. I 
also want to express my support for the other measures offered 
today by members of this committee. It is a real pleasure to 
work with my colleagues and to share a deep personal interest 
in solving these complex problems.
    And I also want to welcome the mothers and thank you for 
what you are doing, standing up and continuing to fight so 
hard.
    Thank you to the chair. And I yield back the balance of my 
time.
    Chairman Royce. Mr. Salmon?
    Mr. Salmon. Thanks a lot, Mr. Chairman.
    I would like to just make a few comments about H.R. 4640, 
but before I do, it is hard not to have your heart touched when 
you see such a wonderful group of mothers here. And I just want 
to remind you of one of the best sayings I ever heard, and that 
is, ``The hand that rocks the cradle rules the world.'' And so 
you are making a difference. We see a lot of terrible things in 
this world, but, you know, it is good to see great things and 
it is good to see great people like you stepping forward. So 
God bless you.
    I would like to thank Ranking Member Engel for partnering 
with me and allowing me to partner with him on H.R. 4640. And I 
agree with you; this time it is going the distance. It is going 
to go all the way to the President. And it is so needed. And I 
thank the chairman for bringing up all the bills today but 
especially this one.
    You know, we have spent billions upon billions of dollars 
fighting the war on drugs right in this hemisphere, and the 
work continues. And this bill is going to make sure that our 
precious taxpayer dollars are being spent in the most effective 
way that we can possibly do it.
    It establishes a commission that is going to evaluate 
across all the Federal agencies what is working and what isn't. 
And that is just common sense. It provides this Congress with a 
report that will allow this committee and our partner 
committees to implement a legislative strategy to attack this 
vicious narcotrafficking criminal process and eliminate the 
scourge of drugs from our streets.
    But it is not just about drugs. The narcotrafficking 
criminal organizations, they support terrorism in our region. 
And they are actively participating in this current 
humanitarian crisis that is happening right on our border with 
the kids from Guatemala, Honduras, and El Salvador.
    In fact, I visited the facility in Nogales just a couple of 
weeks ago where 1,250 children are sitting in cages. I don't 
know what else to call them; they are chain-link rooms with 
razor wire on the top. And every one of those children is being 
brought to this country by coyotes that are aided and abetted 
by the narcotraffickers, the cartels. And so it is a terrible 
scourge on our society.
    And I had to ask myself, as I looked at those little 
children, how many of them didn't make it? How many of them are 
sold into sexual slavery? How many of them are murdered along 
the way? How many of them die in the desert of dehydration? We 
have to solve the problem, but we have to make sure that our 
drug policies are working, because it is the drug scourge that 
is funding these animals that are now preying upon these 
children.
    So fighting these criminal organizations whose staple is 
the drug trade, even though they branch out into human 
trafficking, is a U.S. national security priority. And this 
commission is going to help us provide lessons learned in the 
field to ensure we are spending our limited resources in the 
most effective way and putting us on a path to winning this 
war.
    Finally, I would like to congratulate Congressman Engel, 
the ranking member, for making sure that we are being fiscally 
responsible, too, and that this bill, once we get the report, 
it sunsets 60 days after. So it is not one of those things--
like Ronald Reagan said, ``The closest thing to eternal life is 
a government program.'' That is not the case here.
    So thank you very much, and I yield back.
    Chairman Royce. Let's see. Mr. Perry, were you next? You 
were seeking recognition.
    Mr. Perry. I will take it, Mr. Chairman, thank you very 
much, on House Resolution 588.
    Since September 2013, hundreds and hundreds of Congolese 
children and their adoptive American families have been 
affected by the suspension of exit permits in the Democratic 
Republic of the Congo.
    Just yesterday, I got to hear firsthand the very 
heartbreaking, heartwarming story of numerous families, 
including one in the district I represent, that have legally 
adopted and financially supported their two Congolese children 
but have been unable to welcome them into their loving homes.
    And I found it fascinating--maybe the world doesn't know--I 
mean, the Congolese Government is happy to accept the money. 
And these families have gone through every hoop, and they pay 
every month, and they don't know the status of their children. 
Imagine committing yourself to a child, having that child see 
you, and wonder when the child is coming home. And the child, a 
little baby, doesn't understand and doesn't know why they can't 
come home with their loving parents, but they can't.
    And the parents here in America, they pay the bill, and 
they wonder what kind of care, what kind of treatment. And they 
know, because they have lived it and they have heard, in many 
cases they have lived it themselves, the horrific stories of 
the children that never do make it while they wait, when they 
were healthy when they started, because of the conditions that 
they reside in far away from their loving parents, and never 
get to come home.
    As a father of two beautiful little girls, I can't begin to 
imagine the uncertainty and the anguish these families go 
through. And we owe it, we absolutely owe it, to these parents 
and the children to request that the DRC Government resume 
immediately the issuing of exit permits and to encourage and 
demand--and demand the State Department work sincerely and 
diligently.
    That is the other thing, Mr. Chairman. I heard stories 
about families that go to our Embassy in the Congo and wait 
hours and hours and hours. These are Americans meeting other 
Americans, and wait hours and hours for a 10-minute appointment 
to hear nothing new. It is unacceptable. We demand that the 
State Department work on these families' behalf and those 
children's behalf to bring this to a successful resolution and 
conclusion.
    With that, I yield back, Mr. Chair.
    Chairman Royce. Thank you.
    We go to Mr. Weber.
    Mr. Weber. I am good.
    Chairman Royce. Mr. Cotton.
    Mr. Cotton. Thank you.
    I associate myself with the comments of Judge Poe earlier. 
It is a good and proud day of this committee.
    It has been said by cynics that justice is the interest of 
the stronger, or, put differently, that the strong do what they 
will and the weak suffer what they must.
    We are blessed to live in a country where that is not the 
case, where justice is based on the natural rights of every 
person given to us by our creator. But too often in the world, 
the strong do, in fact, do what they will, whether it is an 
outlaw regime like Iran pursuing nuclear weapons and holding 
American citizens like Robert Levinson in captivity or a 
terrorist gang like Hezbollah that engages in drug trafficking, 
money laundering, arts and antiquity looting, and human 
trafficking to finance its activities around the globe, 
criminal syndicates that prey on the most vulnerable people 
among us to gain their own money through human trafficking, or 
a government that exploits orphaned children at the expense of 
loving families.
    Fortunately, though, the strongest of the strong in the 
world is the United States. We are also the most noble and the 
most just. So I am proud to stand with my colleagues on this 
committee, I am proud to be a part today of the Foreign Affairs 
Committee to use American power and influence to deliver some 
small measure of justice to the wicked and to their victims 
alike.
    Chairman Royce. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    It is indeed an honor to serve on this committee. Your 
leadership and that of Ranking Member Engel is to be applauded.
    Before I speak on 4411, you know, the tears that I see from 
many of the moms touch my heart. The prophet Isaiah, many, many 
years ago, said that we need to defend the cause of the orphan. 
So thank you for defending that cause.
    I want to speak on 4411 and offer my thanks to the chairman 
and the ranking member for their leadership, my friend Mr. 
Schneider for his unrelenting work, for the committee staff, 
for my staff, for those 313 co-sponsors that are on this bill, 
truly for the outside groups that have helped perfect this 
bill, for Mr. Deutch, Ms. Meng, Mr. DeSantis, Mr. Poe, who made 
this bill better.
    But in thanking all of them, it is really not about any of 
us. It is about the target that Hezbollah has and about the 
victims that they continue to perpetrate their terrorist 
activities on each and every day.
    When we look at this, it is about the fact that there are, 
today, 40,000 to 60,000 rockets aimed at Israel by Hezbollah. 
Today, there are thousands and thousands of Hezbollah fighters 
in Syria. Today, there is trafficking of narcotics in Latin 
America, in Africa, and throughout the world because of 
Hezbollah.
    This terrorist organization does not relent. But we have a 
unique opportunity today, that because of global sanctions in 
other areas, we can put our foot on the neck of Hezbollah and 
finish them off by taking the financial resources they have and 
stopping it.
    I am pleased to be a sponsor of this bill.
    But, more importantly than that, there are many others who 
say, well, what about Hezbollah, you know, it may affect Israel 
and it may affect Latin America, but it doesn't really affect 
me. And that is where they are wrong, because Hezbollah's reach 
is global. It is something that must be stopped.
    And I want to conclude with this, Mr. Chairman, by reading 
a quote from the U.S. attorney of the Western District of North 
Carolina, my district that I represent, because we, too, have 
dealt with Hezbollah. And the quote is,

          ``Mohamad Hammoud was a student and a member of 
        Hezbollah as a youth in his home country, and he came 
        to the United States on a Hezbollah-driven mission. His 
        loyalty accomplished his mission by creating a criminal 
        enterprise which accumulated millions of dollars in 
        profits, purchased businesses in the U.S., preached 
        radical Muslim fundamentalism, and truly led a 
        clandestine terrorist cell in Charlotte, North 
        Carolina, raised funds for the cause, and saw that the 
        funds were delivered to Hezbollah leadership in 
        Lebanon.
          ``His guilty verdicts rendered by the jury were 
        upheld by the Supreme Court of the United States. But 
        during his time of imprisonment, while he was awaiting 
        trial, he ordered the murder of the then-prosecuting-
        attorney and the bombing of Charlotte's Federal 
        courthouse. He continues to this day to pose no less a 
        threat to our country and our citizens.''

    If this is not enough for us to act today, if not for 
Israel, if not for Latin America, if not for Africa, then for 
the United States. And I urge the support and I thank the 
support of all my colleagues on this particular bill.
    I yield back, Mr. Chairman.
    Chairman Royce. Well, we thank you, Mr. Meadows, for your 
authorship of the Hezbollah Financing Prevention Act and your 
leadership on this.
    We thank all of the members. I want to just mention also 
the contributions of our ranking members, the ranking member of 
this committee, Mr. Engel, as well as all of those who offered 
up amendments and legislation that we have passed out today.
    Hearing no further request for recognition, the question 
occurs on adopting the en bloc items.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measure and amendments under consideration en bloc are agreed 
to.
    Without objection, each of the seven measures as amended is 
ordered favorably reported as a single amendment in the nature 
of a substitute. Staff is directed to make any technical and 
conforming changes.
    And that concludes our business today. The committee is 
adjourned.
    [Whereupon, at 10:53 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
